<html>
<title> - NOMINATION OF VICE ADMIRAL JOHN SCOTT REDD TO BE DIRECTOR, NATIONAL COUNTERTERRORISM CENTER</title>
<body><pre>[Senate Hearing 109-241]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 109-241
 
                 NOMINATION OF VICE ADMIRAL JOHN SCOTT
                     REDD TO BE DIRECTOR, NATIONAL
                        COUNTERTERRORISM CENTER

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2005

                               __________

      Printed for the use of the Select Committee on Intelligence


  Available via the World Wide Web: http//www.access.gpo.gov/congress/
                                 senate


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-984                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                     PAT ROBERTS, Kansas, Chairman
          JOHN D. ROCKELLLER IV, West Virginia, Vice Chairman
ORRIN G. HATCH, Utah                 CARL LEVIN, Michigan
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
CHRISTOPHER S. BOND, Missouri        RON WYDEN, Oregon
TRENT LOTT, Mississippi              EVAN BAYH, Indiana
OLYMPIA J. SNOWE, Maine              BARBARA A. MIKULSKI, Maryland
CHUCK HAGEL, Nebraska                JON S. CORZINE, New Jersey
SAXBY CHAMBLISS, Georgia
                   BILL FRIST, Tennessee, Ex Officio
                     HARRY REID, Nevada, Ex Officio
                              ----------                              
                      Bill Duhnke, Staff Director
               Andrew W. Johnson, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


                            C O N T E N T S

                              ----------                              

                             July 21, 2005

                                                                   Page
Hearing held in Washington, DC:
    July 21, 2005................................................     1

 Statement of:

    Roberts, Hon. Pat, a U.S. from the State of Kansas...........     1
    Rockefeller, Hon. John D. IV, a U.S. Senator from the State 
      of West Virginia...........................................     3
    Robb, Hon. Charles, former Co-Chairman, Commission on the 
      Intelligence Capabilities of the United States Regarding 
      Weapons of Mass Destruction................................     4
    Chambliss, Hon. Saxby, a U.S. Senator from the State of 
      Georgia....................................................     6
    Redd, VADM John Scott, U.S. Navy retired, Director of the 
      National Counterterrorism Center-Designate.................    10
        Prepared statement.......................................     7

Supplemental Materials:

    Senate Select Committee on Intelligence Questionnaire for 
      Completion by Presidential Nominees........................    25
    Additional Pre-Hearing Questions.............................   174
    Glynn, Marilyn L., General Counsel Office of Government 
      Ethics Letter to Hon. Pat Roberts..........................   196


 NOMINATION OF VICE ADMIRAL JOHN SCOTT REDD, U.S. NAVY, RETIRED, TO BE 
               DIRECTOR, NATIONAL COUNTERTERRORISM CENTER

                              ----------                              


                        THURSDAY, JULY 21, 2005

                      United States Senate,
           Senate Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
room SH-216, Hart Senate Office Building, the Honorable Pat 
Roberts (Chairman of the Committee) presiding.
    Committee Members Present: Senators Roberts, Hatch, Snowe, 
Chambliss, Levin, Wyden and Mikulski.

             OPENING STATEMENT OF HON. PAT ROBERTS

    Chairman Roberts. The Committee will come to order.
    Many are called, but few are chosen.
    [Laughter.]
    Chairman Roberts. Let me say, Admiral, that you shouldn't 
think that the lack of attendance is any indication of a lack 
of support for you; it just simply means that you are so highly 
qualified that nobody has any questions.
    Admiral Redd. Let's see what Senator Robb has to say about 
that, sir.
    Chairman Roberts. We'll leave that to our former colleague.
    The Committee meets today to receive testimony on the 
President's nomination for the newly created position of 
Director of the National Counterterrorism Center. Our witness 
today is the President's nominee, Vice Admiral John Redd. 
Admiral Redd, the Committee welcomes you and we thank you for 
your past service to our country.
    I understand that members of your family are with you 
today. I just met them and they are quite a family. Would you 
care to introduce them at this time?
    Admiral Redd. I would be honored to, sir. This is my wife, 
Donna, who is my best friend and the love of my life for 35 
years. I will tell you, Mr. Chairman, that I married up in 
quality and down in age.
    [Laughter.]
    Admiral Redd. My daughter Ann, her husband, David, son 
Scott, Junior, and his bride Jennifer, and my son Adam are here 
today. So that's it. We do have four grandchildren, ages 1 to 
6, but discretion won out over valor and we left them at home, 
sir.
    Chairman Roberts. They are certainly welcome if they choose 
to come. How old are they?
    Admiral Redd. One through six.
    Chairman Roberts. Well, their conduct could be replicated 
in many instances by Members of this August body. So we'll go 
from there.
    The Committee also welcomes our former colleague from 
Virginia, Senator Robb, who will introduce the nominee. And we 
are awaiting the appearance of Senator Chambliss from Georgia, 
who I understand will be here momentarily.
    Last fall, in the Intelligence Reform and Terrorism 
Prevention Act, Congress created the National Counterterrorism 
Center and the position of Director. The Center will serve as 
the Government's primary organization for analysis of terrorism 
and counterterrorism intelligence; will conduct strategic 
operational planning for counterterrorism activities; will 
assign roles and responsibilities for counterterrorism 
activities; and ensure that agencies have access to and receive 
the intelligence support needed to successfully fulfill their 
missions.
    That's a tall order.
    The Center's Director will serve as the principal adviser 
to the Director of National Intelligence, or DNI, on 
intelligence operations that relate to counterterrorism. You 
will provide strategic operational plans for civilian and 
military counterterrorism efforts; advise the DNI on the extent 
to which the counterterrorism program recommendations and 
budget proposals across the Government conform to the 
President's counterterrorism priorities; and disseminate 
terrorism information to the most senior officials in the 
Executive Branch and the Congress.
    But the point is that Admiral Redd, in my personal opinion, 
is very well-qualified for this position. He comes to us with 
38 years of Government experience and a very impressive resume. 
He most recently served as the Executive Director of the 
Commission on the Intelligence Capabilities of the United 
States Regarding Weapons of Mass Destruction--often referred to 
as the WMD Commission. I might add that the Administration and 
the President felt so strongly about that that they immediately 
adopted 70 of the 74 recommendations, and 3 are under study.
    Prior to his service on the Commission, Admiral Redd served 
as the Deputy Administrator and Chief Operating Officer of the 
Coalition Provisional Authority in Baghdad. During his military 
career, he held a number of relevant positions, including the 
Director of Strategic Plans and Policy for the Joint Chiefs and 
as Commander of the Navy's Persian Gulf-based Fifth Fleet.
    If confirmed, he will report to the DNI on intelligence 
matters and to the President on the Nation's counterterrorism 
strategy.
    He faces a tough job, a tough challenge, leveraging our 
national assets against international terrorist groups. This 
will involve intelligence agencies and agencies whose primary 
focus is not intelligence, but whose missions and capabilities 
are critical to the fight.
    I met with the Admiral earlier this week. I was impressed 
by his knowledge of the organization he has been nominated to 
lead. He was candid in his answers. He was quick to agree to 
keep this Committee well informed.
    We had a very frank discussion about his authorities, the 
dual reporting chain he will be required to work within, issues 
of information access and competitive analysis, and even the 
constraints of leading a workforce assigned and, if you will 
pardon the expression, at the mercy of their home agencies.
    In his responses to this Committee, Admiral Redd made a 
distinction between competitive analysis and competitive 
warning. I think the Members of this Committee agree 
wholeheartedly with that distinction.
    On the competitive intelligence analysis side, it is not a 
race to see who can put out the best headline or who can grab a 
policymaker's attention; rather, it is a debate that should 
produce, in my opinion, the most accurate and well-supported 
analysis.
    Competitive analysis, however, is impossible without the 
level playing field created by what we call information access. 
The Vice Chairman is a strong supporter of the concept, as are 
Members of this Committee. The concept of information access 
involves cleared analysts being able to pull information, 
however or wherever collected, by searching all intelligence 
databases without having to wait for any one agency to push the 
information to them.
    Admiral Redd, you have observed that, to enhance 
information access, both technical and policy adjustments need 
to be made. I agree, especially with respect to the information 
access policies within our intelligence agencies. We discussed 
this at length in my office, and I will continue to support you 
in any way--I speak for the Committee as a whole--to ensure 
that analysts have access to the information they need to 
provide timely and informed analysis.
    Admiral Redd, you are taking on a real big job, a 
tremendous challenge. We and the Nation expect much from the 
NCTC. I believe you are up to the job, and I wish you every 
success. Be assured, this Committee stands ready to assist you.
    With that said, I welcome you to the Committee and I look 
forward to your testimony.
    Ordinarily at this time I would recognize the distinguished 
Vice Chairman, Senator Rockefeller. Unfortunately, he is not 
able to be here today. I know that he shares many of the 
concerns I have voiced and certainly recognizes the importance 
of this nomination.
    I ask unanimous consent that the Vice Chairman's statement 
be made part of the record. Without objection, it is so 
ordered.
    [The prepared statement of Vice Chairman Rockefeller 
follows:]

           Prepared Statement of Hon. John D. Rockefeller IV

    I am pleased to welcome Admiral Redd to the Committee today. With 
his nomination, the Director of National Intelligence is getting close 
to having a complete team in place to bring to fruition the reforms 
enacted last December. I look forward to hearing Admiral Redd's views 
on that legislation, the authority it gave to the DNI, and the 
responsibilities it assigned to the Director of the National 
Counterterrorism Center.
    The creation of the National Counterterrorism Center was one of the 
central pillars of the Intelligence Reform and Terrorism Prevention Act 
of 2004. The center was a key recommendation of the 9/11 Commission and 
first established by the President through Executive order. Congress 
considered it important enough to establish it into law and wanted to 
ensure that the Director had sufficient standing to execute the broad 
range of responsibilities assigned to the center. That is why we 
established the Director as a Senate confirmable position.
    The National Counterterrorism Center, in addition to being the 
single point for integrating and analyzing terrorism related 
intelligence, has the responsibility for ``strategic operational 
planning'' for all aspects of counterterrorism activities. This 
includes diplomatic, financial, military, intelligence, homeland 
security, and law enforcement programs. While the NCTC Director does 
not have operational control of the agencies performing these 
functions, he will be responsible for assigning duties to those 
agencies.
    Admiral Redd certainly seems to have the experience necessary to 
take on this job. His background includes a stint as the Director of 
Strategic Plans and Policy for the Joint Chiefs of Staff. More 
recently, he served as the Executive Director of the WMD Commission and 
before that, he was Deputy Administrator of the Coalition Provisional 
Authority in Baghdad.
    But the job he is taking on now will be more daunting than anything 
he has faced before. Simply coordinating the intelligence agencies 
remains a major challenge. We have made significant progress, but as 
Members of this Committee know, access to information is still not as 
seamless as it needs to be. But even that will be only one of the 
challenges facing the new Director.
    He also will have to sort out the unusual chain of command 
established by the Intelligence Reform Act. The Director will report to 
the DNI on intelligence programs and directly to the President on 
strategic planning issues. Likewise, he will face enormous challenges 
in executing that inter-agency strategic operation planning role.
    I am confident that with the help of Director Negroponte and the 
strong backing of the President, Admiral Redd, if confirmed, will be 
able to deal with these structural issues. He will then be faced with 
his real job, stopping the terrorists.
    The terrorist threat has changed significantly since 9/11. The al 
Qai'da that existed then has been transformed. It still exists as an 
organization, but its real power now comes from the movement it has 
spawned. While we have done a good job of fighting the organization, we 
have made little headway against the movement. As the person 
responsible for planning and coordinating the broad counterterrorism 
efforts, the new Director will need to deal with the broader 
challenges, as well as day to day efforts to disrupt terrorist attacks.
    Another major challenge will come from Iraq. The ongoing insurgency 
there has become an incubator for a new generation of terrorists 
trained in urban terrorist tactics and with a deep hatred of the United 
States. We need to start now developing a plan to track and disrupt 
this group when the insurgency there begins to wind down.
    Our Nation must succeed at these tasks; our security and safety 
depends on it. I am pleased that someone of Admiral Redd's caliber has 
agreed to lead this effort. I look forward to his testimony and hope 
the Committee can move quickly to consider the nomination.

    Chairman Roberts. I would now recognize our former 
colleague, the distinguished gentleman from Virginia, Senator 
Robb.

   STATEMENT OF HON. CHARLES ROBB, FORMER U.S. SENATOR FROM 
      VIRGINIA, AND FORMER CO-CHAIRMAN, COMMISSION ON THE 
   INTELLIGENCE CAPABILITIES OF THE UNITED STATES REGARDING 
                  WEAPONS OF MASS DESTRUCTION

    Senator Robb. Thank you, Mr. Chairman. I am delighted to be 
here. I had anticipated that Senator Chambliss would have made 
the formal introduction.
    Senator Hatch, Senator Wyden, I am very pleased to be back 
with friends and former colleagues to introduce the man that 
the President has nominated, and whom I hope it will be your 
pleasure to confirm, as the next Director of NCTC. There are 
many truly outstanding elements of his resume. I am not going 
to cover any of them. I'm going to talk only about the man that 
I have gotten to know.
    Let me just say that a lot of people have resumes that are 
a little bit boring. There are some elements in here that are 
truly elements of distinction in his background and past. But 
I'd like to talk to you about the man who had headed up for the 
past year the Commission to which you just made reference and, 
Mr. Chairman, to thank you and the Members of the Senate Select 
Committee on Intelligence for your input in working with us 
during the course of the last year and a half in making that a 
reality.
    As we have said, both in our report and publicly, we built 
on the fine work that your Committee had done and the 9/11 
Commission and others had done, but yours was the most relevant 
and current and on point, and we very much appreciated that.
    Let me say first of all that Larry Silberman, the co-
chairman with whom you have worked as well, would definitely 
have liked to have been here, liked to have had this 
opportunity as well. He's an old Washington hand, however, and 
he's very familiar with the climate in the summer months, so 
every year he spends July in Maine. This is not an exception. 
So I know that I can speak for him. We talked a little bit 
about this. We have been able to speak for each other in a 
number of instances.
    Several members of the professional staff--and they were 
outstanding--are in the room today, all supportive of the 
nomination of Admiral J. Scott Redd to be the next Director of 
NCTC.
    We made a very specific search to find someone that would 
be the right person, if you will, to head up the Commission. We 
consulted far and wide, and no one that we talked to had 
anything but unstinting praise for Scott Redd. We asked him to 
take the assignment, and the first objection we received was 
from his then-boss. He was the deputy to Paul Bremer in Iraq, 
and he said I can't give him up. We appealed to him based on 
the Executive order, which was very helpful, as well as the 
needs of the Nation in this particular instance, and he came 
and joined us.
    To the extent that the findings and recommendations of our 
report--and, Mr. Chairman, I might say that although when Fran 
Townsend released her review and the formal recommendations 
that the President was working on about 3 weeks ago now, there 
are now 71, I have been informed, and there are at least 2 more 
recommendations that are still under study. So in terms of a 
batting average I won't make nay other comparisons, but even 
Ted Williams would have thought batting way over 950 would have 
been something truly extraordinary.
    To the extent that those recommendations and findings were 
so readily accepted and there was so much buy-in by the 
community, no one was more responsible than Scott Redd. We had 
many people who made major contributions to that particular 
effort, but Scott's ability to lead a group of very highly-
motivated professionals, coming from different perspectives in 
the national security and intelligence field and to bring all 
of that synergism together was really quite extraordinary, and 
it's one of the reasons that I think you would search in vain 
to find any member of the Commission or any member of the 
professional staff who wouldn't join me in an enthusiastic 
endorsement of Scott Redd to be the Director of this Center.
    A couple of just personal items. He is scrupulously honest 
and ethical. He has a good sense of humor, but he remains very 
much focused and mission-oriented. He has a very deft touch in 
working with highly-skilled colleagues and subordinates, and he 
knows when to lead and he knows when to listen, and not all 
leaders can combine both of those qualities.
    Perhaps most important for the person who is to lead the 
NCTC, he is unflappable. He is universally respected by 
everyone in the national security and IC community that I'm 
aware of, and I believe that that judgment, as I say, is shared 
across the board.
    As you can tell, I think--and I will not do any more 
filibustering until Senator Chambliss arrives--I have a very, 
very high regard for this man, and I think the President has 
made a superb choice. Although we are never in a position to 
guarantee that terrorists won't succeed in some small way, I 
think most of us who know Scott Redd know that he will be doing 
everything possible within our power to defend the country's 
interest, if it is the pleasure of this Committee to favorably 
report out and vote positively on the Senate floor for the 
nomination of Admiral J. Scott Redd to be the next Director of 
the National Counterterrorism Center.
    With that, Mr. Chairman, I would be delighted to answer any 
questions, that you or other Members of the Committee may have. 
If not, I know the routine and I will abandon the distinguished 
nominee at this point and leave him to the mercy of your 
incisive questions as to how he will carry out this 
responsibility.
    Chairman Roberts. There will be no need for mercy. We have 
Senator Chambliss, who has now arrived on the scene. Better 
timing could not have been arranged.
    Senator Chambliss, I recognize you, sir, for the purpose of 
an introduction. Let me say that Senator Robb has waxed poetic 
in regard to the Admiral and all of his qualifications and why 
he is an excellent nominee. We now recognize you, sir, as a 
Member of this Committee.

        STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR 
                          FROM GEORGIA

    Senator Chambliss. So you are telling me to keep it short, 
Mr. Chairman. I understand that.
    Chairman Roberts. Now that was a sort of long way around 
it, but that's what we're trying to say, yes.
    Senator Chambliss. Actually, Senator Robb and I had this 
plan where I would make this grand entrance here. 
Unfortunately, Mr. Chairman, I was sitting on the floor waiting 
to vote so I would be here on time for this hearing, but I did 
not know the vote had been cancelled. So I apologize to the 
Chairman.
    Well, I'm sure that Senator Robb has waxed very eloquently 
relative to Admiral Redd, but let me just say, Mr. Chairman, I 
have had the privilege of knowing Admiral Redd for several 
years. He's obviously a resident of my State. He's not only 
been a good friend, he's been a great citizen of this country, 
in particular, a great citizen of our State.
    He has every particular asset needed to take on this new 
and very challenging position. For someone to step into a new 
position such as this, with the type of background that he has, 
I think is very admirable for this Admiral. Scott could very 
easily just retire back home to Georgia and enjoy life, enjoy 
his family. But, as he told me the other day, there are just 
certain times when your country calls that you just feel the 
need to respond in a positive way.
    He's had other opportunities to serve that have not 
presented the need nor the challenge that this does, and I 
could not be prouder of him to have him nominated for this 
position. He's just a great man and he's been a great leader 
for our country. He's going to provide exactly the type of 
leadership, Mr. Chairman, that the Director is going to need 
for this position.
    So I can't say enough good things about him. I'm very 
pleased to be here, along with Senator Robb, to commend him 
highly to the Committee.
    Chairman Roberts. Senator Chambliss, thank you very much.
    Admiral, now that you have achieved near-sainthood, we 
would now like to practice the Robb theory of leadership and do 
some listening. You are recognized, sir.
    [The prepared statement of Admiral Redd follows:]

Prepared Statement of Vice Admiral John Scott Redd, U.S. Navy Retired, 
       Director of the National Counterterrorism Center-Designate

    Mr. Chairman, Mr. Vice Chairman, Members of the Committee, I am 
honored to come before you today as the President's nominee to be the 
first Senate-confirmed Director of the National Counterterrorism 
Center. This new agency is a central element of Congress' plan to 
strengthen U.S. intelligence capabilities and to mobilize all 
Government agencies in the war on terrorism. I am fully cognizant of 
the immensity and the importance of the duties I have been called upon 
to assume. If confirmed, my pledge to you is that I will carry out the 
mission of the NCTC with determination, with integrity, and to the very 
best of my ability.
    In appearing before you today, I am mindful of a silent 
constituency: The victims of 9/11, the soldiers and civilians killed in 
Iraq, the sailors killed on the USS Cole, the airmen who died at Khobar 
Towers, those who died at the hand of terrorists at our embassies in 
Africa, the dead in Lebanon, Madrid, and most recently, in London. 
There are many others, and it is the grim nature of war that these 
numbers will surely grow. Nonetheless, it will be the mission of the 
NCTC to do everything in its power to stop each and every attack. Our 
national objective is difficult but straightforward. It is to destroy 
terrorist networks far and wide and to render terrorism ineffectual and 
self-defeating as a tactic, even for fanatics.
    I come before you today after a career of nearly 40 years in 
service to the Nation. You will be the judge of my qualifications, but 
I believe my years of service have prepared me for this responsibility 
in several important ways.
    First, I have been deeply involved in national security matters all 
of my adult life. I have been privileged to hold positions of 
responsibility for the most sensitive activities of the U.S. 
Government. I have participated extensively in the deliberations of the 
National Security Council in both Democratic and Republican 
administrations. Before my retirement after 36 years of active-duty 
military service, I served as Director of Strategic Plans and Policy 
for the Joint Chiefs of Staff, leading the development of the National 
Military Strategy.
    Second, Terrorism is not an abstract concept to me. I have lived 
and operated under the threat of terrorists. Nine years ago, I heard 
and felt the blast from Khobar Towers while standing 30 miles away in 
Bahrain. Elements of my command were among the first to respond. Last 
year I served briefly in Baghdad as Ambassador Bremer's Deputy in the 
Coalition Provisional Authority with up-close responsibility for 
civilian operations under siege by terrorists.
    Third, the National Counterterrorism Center is itself a product of 
a changing world landscape, and my experience has prepared me to lead 
in an environment of strategic transition. I have been involved in the 
adaptation and reform of Government institutions in diverse settings 
and circumstances. I had extensive joint military experience before the 
Goldwater-Nichols Act made joint duty what it should be. In response to 
evolving threats to our vital national interests, I had the privilege 
to propose, promote, commission and command the FIFTH Fleet in the 
Middle East--the Navy's only new fleet since the World War II era. In 
the private sector, I was the Chief Executive Officer of a high-tech 
education company, where I experienced firsthand the challenges and 
rewards of reforming another culture, public education. Most recently, 
I served as Executive Director of the Presidential WMD Commission whose 
report is now the President's blueprint for reform of the Intelligence 
Community.
    Overall, I believe my most important experience is that of 
leadership, developed at the helm of over a dozen operating 
organizations as a Commander, a Chief Executive officer or a Chief 
Operating Officer. Foremost among those experiences has been my service 
in the United States Military. I have commanded eight military 
organizations, all of which were in the business of conducting 
operations at the tip of the spear. Those were my most personally 
rewarding tours of duty and the most formative of my professional 
character. As if no time had passed, my heart remains with those who 
serve on the front lines today.
    If confirmed, I will draw upon all of the leadership skills, 
experience and judgment that I have garnered over the years.
    That summarizes my view of my qualifications. I will now move 
briefly to a few thoughts on the way ahead.
    First, people are key to our success. As is the case with any 
Government leader, my job performance will depend upon the performance 
of a thousand others. In my short time at the NCTC as well as over the 
last year with the WMD Commission, I have been impressed by the 
dedication, professionalism, and patriotism of the members of the 
Intelligence Community. If confirmed, I will build on the existing 
foundation and cultivate a culture within the NCTC and the larger 
counterterrorism community where every individual is encouraged to give 
his or her utmost and is honored to serve as a member of the team. I 
will place exceptional value on collaboration and teamwork. We are at 
war. The buddy system will be in force.
    As in all positions of this nature, there will be more to do than 
is humanly possible. An important part of my leadership will be setting 
priorities. While there are many challenges ahead, bridging what has 
traditionally been referred to as foreign and domestic intelligence 
will be one of my top priorities. That means forging and strengthening 
strong alliances with the Department of Homeland Security and the 
Federal Bureau of Investigation. Both of these sister agencies are 
charting new territory in the area of counterterrorism. Both are 
struggling with unprecedented demands for intelligence, application of 
new policy and legal provisions in respect to U.S. persons, and 
construction of a modern information sharing architecture. Under 
direction from Ambassador Negroponte, I will lead a coherent, 
Government-wide approach to these challenges. I will invoke his full 
authorities, and those that repose in me as Director of the National 
Counterterrorism Center, to manage intelligence for counterterrorism 
across the Government as a single enterprise.
    I look forward to working with an invigorated foreign intelligence 
community. In particular, the CIA's Counterterrorism Center has for a 
number of years been a center of excellence. With little public 
recognition of their successes, the staff of CTC works tirelessly every 
day to save lives. If confirmed, I will work with the Director of CIA 
to ensure that NCTC works hand-in-glove with CTC for the good of the 
Nation.
    At the top level, the NCTC has two broad functions: Intelligence 
and Strategic Operational Planning. The first, and more established 
function resides within the world of intelligence--understanding the 
terrorist enemy, his objectives, his support networks, and his actions. 
The second and more uncharted function relates to our Government-wide 
operations against that enemy. Specifically, it involves strategic 
operational planning to bring all the instruments of national power to 
bear against the enemy.
    With respect to intelligence, a central role of the NCTC is to 
integrate, exploit, and disseminate all proper sources of information 
on international terrorism. Our goal will be to expose the networks of 
international terrorism, and to identify and hunt down its 
perpetrators. We will cast the net far and wide. Those who knowingly 
put money in the hands of terrorists, or who provide refuge or other 
support, are no less our enemies than those who strap-on the bombs. In 
this foundational mission, the Director of the National 
Counterterrorism Center is a key member of the U.S. Intelligence 
Community and a direct subordinate of the Director of National 
Intelligence. I have known John Negroponte for 20 years and appear 
before you with his full support.
    In addition to tactical and operational intelligence, we must also 
take the long view. If confirmed, I will place greater emphasis on long 
term, in-depth analysis. The counterterrorism strategy of the United 
States should be grounded on a thorough understanding of our 
adversaries. We need to understand the political, cultural, and social 
forces that turn teenagers into indiscriminate assassins. This context 
is highly differentiated in different regions and countries. An 
understanding of events in the Middle East cannot be automatically 
transposed to Africa or Southeast Asia. Without relenting in the real-
time hunt for individual terrorists, the United States needs a longterm 
strategy that addresses the roots of terrorism and that is based upon a 
genuine understanding of its causes and antecedents.
    The intelligence-gathering and dissemination role of the NCTC is 
replete with opportunities, and with pitfalls. Many of the 
opportunities are technology-driven. Information technology has great 
potential to enhance almost every aspect of intelligence operations, 
from collection and data integration to analysis and dissemination of 
finished intelligence. To realize this potential will require sustained 
excellence and innovation, along with rapid migration from the research 
laboratory to the battlefield. The NCTC will be the hub of an 
intelligence network that goes far beyond the traditional U.S. 
intelligence community. The network will extend to all agencies of the 
Federal Government, to State and local governments and law enforcement 
agencies, to the private sector, and to liaison elements of foreign 
countries.
    The challenges of information sharing on this scale are well-known. 
However, as evidenced in the studies of the WMD Commission, building 
the requisite technology infrastructure will be less formidable than 
the task of rationalizing the disparate rules and policies that overlay 
the information sharing environment. Many of these rules and policies 
are vestiges of the cold war while others represent bureaucratic 
inertia. If confirmed, I will work relentlessly to overcome these and 
other obstacles. The goal is simple: to make sure the right people have 
the right information at the right time.
    The application of information dominance in the war on terrorism 
must be bounded to protect the values we are fighting for. The rights 
of privacy and free expression are at the core of American civil 
liberties. These fundamental protections would be placed in jeopardy by 
unrestrained collection and exploitation of personal data. Congress has 
attended to this concern in new legislation by creation of a Civil 
Liberties Board to oversee all U.S. intelligence activities. It will be 
my responsibility to work closely and cooperatively with this Board, as 
well as the DNI's Civil Liberties Protection Officer, in the 
counterterrorism arena. More to the point, it will be my 
responsibility, irrespective of external civil liberties oversight, to 
be vigilant in protection of American civil liberties in every aspect 
of the work of the National Counterterrorism Center. There is no 
victory in the apprehension of terrorists if it is done at the expense 
of principles embodied in our Constitution and Bill of Rights.
    The second major mission of the NCTC is Strategic Operational 
Planning. This is a new mission defined and assigned by the President 
and the Congress in direct response to the terrorist threat. Indeed, 
the legislation that established the National Counterterrorism Center 
is a landmark in the history of the U.S. Government. Congress has 
vested an unprecedented concentration of responsibilities in a new 
institution with a vital, highly focused, and unrelenting mission. 
Reporting to the President, the Director of the National 
Counterterrorism Center is called upon by law to plan the employment of 
``all instruments of national power.'' He or she is charged to 
orchestrate, by ``strategic operational planning,'' what amounts to a 
perpetual assault by the United States of America on terrorism and 
terrorists wherever and whenever they threaten our national interests. 
Inherent in this job is the monumental task of planning, coordinating 
and leveraging the counterterrorism work of all agencies of the Federal 
Government to achieve synergy and maximum effect. This responsibility 
could not be more daunting nor more necessary. If confirmed, I will 
concentrate the Center's full energy and capabilities to ensure that 
this new mission is swiftly developed, functional and effective.
    Further, let me add a word about our shared responsibilities. I 
have spent most of my adult life in the U.S. Navy, where the Captain of 
the Ship serves as the prototype of responsibility and accountability. 
I expect to be held accountable. But responsibility and accountability 
have a third, inseparable companion. That companion is authority. 
Meaningful accountability requires authorities commensurate with 
assigned responsibilities. I will put the new authorities of the 
Director of the National counterterrorism Center to the test. If need 
be, where I lack authority within my area of responsibility, I will 
seek it from the DNI or from the President. It may be that, if new 
statutory authorities are unclear, or if they engender conflicting 
interpretations, I will return to this body to request additional 
powers required for the NCTC to fulfill its mission. That said, my 
initial inclination is that the authorities are sufficient.
    In the same vein, as a definitional matter, I may be called a 
``political appointee,'' but there is nothing political about this job. 
Every citizen of the United States, irrespective of political 
affiliation, indeed every person anywhere in the world who holds to 
basic humanitarian principles, has a stake in the success of the 
National Counterterrorism Center. Although it would be foolish not to 
expect detractors and critics, I firmly believe that the overwhelming 
majority of Americans hope for success of the NCTC. I intend to draw 
upon these shared values and good will, especially in my dealings with 
the Congress of the United States. Whatever differences may exist in 
approach or emphasis, I believe we are in lockstep on the desired 
result. I intend to preserve this relationship through candor, honesty 
and integrity in working with the United States Senate and House of 
Representatives.
    To succeed, we must recognize the nature of the conflict we are 
engaged in. I believe it is correctly characterized as a war, but there 
are differences from historical wars. As with most wars, there will be 
many battles. But in the war on terrorism, our victories in battle will 
in most cases be invisible or opaque to the vast majority of the 
public, while our defeats will be painfully obvious. We will do 
everything in our power to win every battle, but we must also recognize 
that losing a battle, should that occur, cannot be allowed to weaken 
our resolve to win the war.
    I began my remarks by acknowledging the silent witnesses who have 
been victims of terror. I will finish by noting another constituency. I 
am a father of three and grandfather of four. It is likely that the war 
we are fighting against terrorism will continue well into their 
lifetime. Without question, the conduct and outcome of this war on 
terrorism will shape the character and quality of their lives and, 
indeed, our entire civilization. I have no need for other motivation. 
By accepting this call to duty, I will be defending everything that I 
hold dear. With due humility in respect to the magnitude of the 
challenge, I am ready to launch, and, by God's grace, determined to 
prevail. Thank you.

        STATEMENT OF VICE ADMIRAL JOHN SCOTT REDD, U.S. 
        NAVY, RETIRED, DIRECTOR OF THE NATIONAL COUNTER-
                   TERRORISM CENTER-DESIGNATE

    Admiral Redd. Thank you, Mr. Chairman.
    Senator chambliss. You're on your own.
    Admiral Redd. Thank you, sir. I don't suppose there's a 
provision where the defense can rest at this point.
    [Laughter.]
    Chairman Roberts. Judging from your qualifications, sir, 
that might be a good thing to do, but we encourage your 
statement.
    Admiral Redd. Thank you, sir. I would like to thank Senator 
Saxby Chambliss for his very kind introduction on behalf of my 
adopted State of George, which we have truly come to enjoy and 
love. I would note for the record I am a native of Iowa, which 
is not far from the State of Kansas, of course, so there are 
some midwestern genes as well in my background. I am also very 
grateful to Senator Chuck Robb.
    I've gotten to know both of these gentlemen in the last few 
years as true patriots and true friends, and in spite of the 
typical Marine Corps-Navy jokes, which I will not repeat, given 
the Chairman's background, we've had a wonderful relationship.
    With your permission, sir, I would like to ask that my 
longer opening statement be entered in the record and in the 
interest of time I will summarize my remarks to the Committee, 
if that's acceptable.
    Chairman Roberts. Without objection. Please proceed.
    Admiral Redd. Mr. Chairman, Senator Hatch, Senator Wyden, 
Senator Chambliss, I am honored to come before you today as 
President Bush's nominee as the first Senate-confirmed Director 
of the National Counterterrorism Center. I am truly grateful to 
President Bush for the confidence he has shown in me, in 
nominating me, and I am fully cognizant of the immensity and 
the importance of the duties which I have been asked to assume.
    If confirmed, my pledge to you is that I will carry out the 
mission of the National Counterterrorism Center with 
determination, with integrity, and to the very best of my 
abilities.
    As I sit before you this afternoon, sir, I am mindful of a 
very silent, but very strong constituency--the victims of 9/11, 
the Marines who died in Lebanon, sailors killed on the USS 
COLE, the airmen who died in Khobar Towers, the soldiers, 
civilians and other servicemen who have died in Iraq and 
Afghanistan, diplomats who died at the hand of terrorists in 
our embassies in East Africa, the dead in Madrid and, most 
recently, in London, and I hope that today there were no 
fatalities there, but clearly a very good reminder today that 
this is a war which is ongoing.
    There are many others. And it is a grime reality of the war 
that we're in that these numbers will surely grow. Nonetheless, 
it will be the mission of the National Counterterrorism Center 
to do everything possible to stop each and every attack. Our 
national objective is difficult, but it's straightforward. It 
is to destroy terrorist networks far and wide and to render 
terrorism ineffectual and self-defeating as a tactic, even for 
fanatics.
    I come before you today, Mr. Chairman, having served my 
country for almost 40 years. At the end of the day, you and 
this Committee and the Senate will be the judge of my 
qualifications, but I do believe my years of service have 
prepared me for this responsibility. Let me just highlight two 
points regarding my qualifications.
    First, terrorism is not an abstract concept to me. I have 
lived and operated under the threat of terrorists. Nine years 
ago I was standing at my headquarters in Bahrain when Khobar 
Towers exploded. I not only heard, but I felt the blast 30 
miles away. Elements of my command were among the first to 
respond to that tragedy.
    Last year, as was mentioned, I served briefly in Baghdad as 
Jerry Bremer's deputy at the Coalition Provisional Authority, 
with up-close responsibility for civilian operations under the 
threat and under the siege of terrorists.
    Secondly, if confirmed, I believe that the skills and 
experiences I will draw upon most would be those of leadership. 
I have been privileged to lead over a dozen operating 
organizations as a commander, as a chief executive officer, or 
chief operating officer. Foremost among those experiences has 
been my service in the United States military. I've commanded 
eight military organizations, and all of them were in the 
business of conducting operations at the tip of the spear. 
Those were my most rewarding tours of duty and it will not 
surprise you that my heart remains today with those who serve 
on the front lines.
    Let me focus just for a moment, if I could, on the way 
ahead. Congress and the President have assigned two fundamental 
roles to the NCTC. The first centers on intelligence, as has 
been noted. By law, the National Counterterrorism Center is to 
be the primary organization for the analysis and integration of 
all intelligence pertaining to counterterrorism, and making 
that information readily available to all who need it. In this 
role, if confirmed, I will report directly to Ambassador 
Negroponte in his role and position as Director of National 
Intelligence.
    The second role centers on planning. Congress has given to 
the NCTC the significant new task of strategic operational 
planning for all counterterrorism activities. That explicitly 
involves integrating all elements of national power, from 
diplomacy and financial to the military and offensive 
intelligence operations, to homeland security and law 
enforcement. While it does not involve execution of 
counterterrorism operations, this responsibility is clearly 
substantial, daunting and, I believe, very necessary. As you 
have noted, in this strategic operational planning role, if 
confirmed, I will report directly to the President.
    In both roles it is my pledge to you I will use the 
authorities, all the authorities, which you have given the 
Director of the NCTC to the utmost of my abilities.
    At the heart of both of those roles is the concept of 
integration, and I'm sure we'll talk a lot about that today. I 
will give particular attention to forging and strengthening 
strong alliances with all the members of the Government's 
counterterrorism team. On the domestic front, the Department of 
Homeland Security and the FBI are key players. Both of these 
sister organizations, as you know, are charting new territory 
in the area of counterterrorism. In the area that I know 
firsthand, I look forward to working with an invigorated 
foreign intelligence community, including the military and the 
CIA's highly-capable Counterterrorist Center. Bringing together 
all of these organizations into a cohesive, dynamic and 
effective community is probably the greatest value that we can 
bring.
    Effective integration also requires effective teamwork. 
Teamwork involves people. If confirmed, I will do everything in 
my power, sir, to nurture a vision and a culture where every 
individual is inspired to do his or her best for the effort and 
is honored to serve as a member of the team.
    In our struggle against terrorism, we will work hard to do 
the right thing. But there's an even higher standard. We must 
not only do the right thing; we must do it in the right way. 
The end does not justify the means. Our intelligence and 
operational activities against terrorists must be bounded to 
protect the values we are fighting for. The rights of privacy 
and free expression are at the core of American civil 
liberties. The apprehension of terrorists is a pyrrhic victory 
if it is done at the expense of the principles embodied in our 
Constitution and Bill of Rights.
    Finally, let me say a word about our shared 
responsibilities. I may be technically called a political 
appointee, but there's nothing political about this job. Every 
citizen of the United States, regardless of political 
affiliation, and indeed every person anywhere in the world who 
holds to basic humanitarian principles has a stake in the 
success of the National Counterterrorism Center. I intend to 
draw upon these shared values and good will, especially in my 
dealings with the Congress.
    Whatever differences may exist in approach or emphasis, I 
believe we are in lockstep on the desired result. I intend to 
preserve this relationship through candor, through honesty and 
integrity in working with you.
    I began my remarks, Mr. Chairman, by acknowledging the 
silent witness of those who have been victims of terror. I will 
finish by noting another constituency. As we have noted today, 
I am a father of three and a grandfather of four. It is very 
likely that the war we are fighting against terrorism will 
continue well into their lifetimes. Without question, the 
conduct and outcome of this war on terrorism will shape the 
character and quality of their lives and indeed for our entire 
civilization.
    I have no need for other motivation. By accepting this call 
to duty, I will be defending everything that I hold dear. With 
due humility and respect to the magnitude of the challenge, I 
am ready to launch. By God's grace I will do everything in my 
power to ensure that we prevail.
    Thank you, Mr. Chairman.
    Chairman Roberts. Admiral, we thank you for a comprehensive 
and pertinent if not poignant statement.
    We will now proceed to questions.
    Do you agree, sir, to appear before the Committee, here or 
in other venues, when invited?
    Admiral Redd. I do, sir.
    Chairman Roberts. Do you agree to send intelligence 
community officials to appear before the Committee and 
designated staff when invited?
    Admiral Redd. I do, sir.
    Chairman Roberts. Do you agree to provide documents or any 
material requested by the Committee in order for it to carry 
out its oversight and its legislative responsibilities?
    Admiral Redd. I do, sir.
    Chairman Roberts. If confirmed, you are going to have 
considerable input into decisions at the NCTC with regard to 
information access. We both mentioned this in our statements. 
In concert with expanded information access, we need to be 
certain that intelligence community analysts operate on a level 
playing field. Without this level playing field, I believe that 
effective and competitive intelligence analysis is simply 
impossible.
    This Committee has heard that the NCTC is described as the 
Las Vegas of the intelligence community. What goes on at the 
NCTC stays at NCTC. In other words, the NCTC might have 
information access, but counterterrorism analysts in other 
parts of the intelligence community don't have the same level 
of access.
    What steps, sir, would you take to ensure that we are 
leveraging each agency's all-source analysis capability through 
improved information access?
    Admiral Redd. Thank you, Mr. Chairman. That is clearly one 
of the critical areas and one of my highest priorities, gained 
both from personal experience in the past, and most explicitly 
from the WMD Commission. The simple goal in information-
sharing, as you understand, sir, is to get the right 
information to the right people at the right time.
    My sense, again being in the process of reading in at the 
NCTC, is that we're on a journey. I would submit to you, sir, 
that the NCTC is probably at the forefront of information-
sharing in terms of where we are. There's been some progress 
out there. There remain challenges, as you know--technology 
challenges, to a certain extent resources problems, although 
those tend to be derivative of the technology, and finally some 
practices and policy.
    I would submit to you that the even-existing setup today, 
particularly involving NCTC on line, is an incredible step 
forward. So the information does come in. And, as you know, 
there's a history here in terms of how TTIC was setup, now 
NCTC, as people have come in and brought their own authorities 
from each of the agencies--many in law, some in practice--and 
brought those together.
    So the first step has been to make sure that within NCTC 
there's a good and wide sharing. What we're seeing now and what 
you see now is, with NCTC online, every disseminated product is 
now available on NCTC online, and those are available 
throughout the community. That's a very major step forward.
    There are still some challenges and, as you understand, 
with Ambassador Negroponte standing up, some of the reasons and 
rationales for the way TTIC was set up originally, and now 
NCTC, in terms of people bringing their own authorities from 
their agencies, we may be over that and may be able to do that. 
There are still challenges in terms of getting all the access 
out. We have to do it, obviously, in terms of what the law says 
in terms of U.S. persons. That's one of the areas.
    I would say this to you, that certainly within NCTC today I 
don't think there's a piece--you don't know what you don't 
know, but I don't think there's a piece of counterterrorism 
intelligence which is not in the NCTC. Even at this point, 
however, it's not as widely shared as it should be, and we're 
making some improvements on that. But the next step clearly is 
to get that out within the larger CT analysis community.
    The other step is sort of the next ring out, those people 
who are part of the counterterrorism team, but they're not 
necessarily part of the intelligence community. That's the next 
major challenge in terms of breaking down these policies.
    I would just say we're on a journey, sir. We've come a long 
ways. We've got a ways to go.
    Chairman Roberts. Should not the NCTC have a cadre of 
permanent personnel? You talked about other members of the 
intelligence community bringing their expertise and having 
access. Shouldn't we have a cadre of permanent personnel and, 
if so--and I know this is very early to be asking you this--
could you give us an estimate of how many permanent personnel 
there should be?
    Admiral Redd. I think I can give you a principled argument. 
I can't give you the details, obviously, because I haven't done 
the management sort of analysis. But intuitively, I sense that 
I think it's a good idea to have a cadre of permanent people. I 
guess in my own background I draw on a couple of examples from 
the defense side, either the Office of the Secretary of Defense 
or, particularly, the Joint Staff.
    It's a tradeoff, the balance of having people there who 
have longevity, who provide continuity and who are truly 
beholding, if you will, to the NCTC on the one hand, and on the 
other hand to have that sort of joint experience. You do want 
to have both, I believe. I think you want to have a lot of 
people rotating through because not only do they bring in a lot 
of experience, they take a lot of that back, and that helps in 
sort of a Goldwater-Nichols idea, if you want, in the 
intelligence community.
    I don't know what those numbers are, whether it's 50/50, 
70/30, 60/40. I'd really need to look at that. It will not 
happen overnight. As you know, we have to make sure that as we 
go that direction, and we go away from the assignee model which 
you have right now, that our initial take on the authorities, 
the way we deal with the various authorities from the 
contributing organizations, we haven't lost yet. My sense is 
that we won't, and that we can do that, but I can't give you a 
number today, sir.
    Chairman Roberts. Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman, and 
welcome, Admiral. I enjoyed my visit with you.
    As I indicated to you, my interest here is trying to find a 
way to balance both ends of the teeter-totter, to fight 
terrorism ferociously while at the same time being sensitive to 
personal liberties. Obviously, to be successful in 
counterterrorism you've got to be able to share data 
effectively. And yet the standards for collecting data, as I 
indicated to you, are pretty meager.
    And also it doesn't seem that there are adequate provisions 
for oversight and protection of some of this data. The Supreme 
Court, in a 1989 case, held that the Government can withhold 
data bases from public disclosure even when all the information 
they contain is publicly available. The Court said, ``Plainly 
there is a vast difference between the public records that 
might be found after a diligent search of courthouse filed, 
counter archives and local police stations throughout the 
country and a computerized summary located in a single clearing 
house of information.''
    You are going to be the single clearinghouse of 
information. You are going to be exactly what the Supreme Court 
spoke to. And the Congress--and I strongly support the 
proposition--believed that that was important, to make sure 
that you'd have improved access to information regarding 
terrorist suspects and people who would put our citizens at 
risk.
    What I'm concerned about is the other side of the ledger, 
which is how you're going to protect the privacy of law-abiding 
people. I'd like to hear you address that. I haven't heard you 
address it thus far in the hearing. You have a certainly 
laudable paragraph about it in your written testimony. But how 
do you seek specifically to improve information access without 
sweeping up all this personal information on innocent people?
    Admiral Redd. Well, we had a good discussion the other day, 
sir. I think it's important just to note, as we did in the 
discussion the other day, that NCTC itself, as you know, is not 
in the collection business. All the information comes in to us 
from the various agencies.
    We went back. I've talked to the staff about this briefly. 
I will certainly tell you I'm not an expert on the subject and 
I'm not sure that NCTC is going to be the first line of defense 
in this. But, just to deal with the specific issue which you 
raised, first of all, the collection of the information that 
comes in to us, there are some pretty significant standards, 
particularly in the areas we talked about, in terms of 
protecting U.S. persons. Clearly we have to balance the goal. 
You're looking to us. You created us and you brought this 
information together with the purpose of connecting the dots.
    But I would say to you there's a difference--I think 
there's a difference, at least in our discussion, between 
searching information in the context of a counterterrorism 
nexus. In other words, there's something that indicates 
there's--I won't use the legal term ``probable cause,'' but 
there's something related to terrorism, and doing a search on 
that subject is very different than going out and data-mining 
and, as some people have said, maybe instead of connecting the 
dots that's trying to find the dots.
    But within NCTC and within those searches, we are bound by 
the very same rules and regulations and law in terms of what we 
can do in terms of protecting U.S. persons.
    Senator Wyden. But there aren't really any rules with 
respect to searches, in public data bases. There are some rules 
with respect to the private sector. So why don't you tell me 
what the protections are, as you see them, as it relates to 
public data bases for the rights of our citizens.
    Admiral Redd. I think, as I said, sir, two things. First of 
all, there must be a nexus between the search--not data-
mining--but to do the search there must be a nexus to 
terrorism. And we are out to connect the dots. And I think that 
very proper for us to do.
    We are not allowed to go on fishing expeditions. I can't go 
in and say, ``Put Ron Wyden's name in and go find out all sorts 
of things.'' That's against the rules and it's against the law, 
as I understand it.
    I will tell you this as a practical matter. In fact, 
Chairman Roberts in a recent hearing made the comment, quoting 
General Hayden, that in practice I find that the people at NCTC 
are so concerned about this and so aware of it that they 
probably lean so far back in some ways we may even have to push 
them. It was General Hayden's comment that we're not even 
coming up to that line.
    Senator, let me just say this is a complicated subject. I 
don't pretend to be an expert on it at this point in time. 
Technology brings challenges. As we go through, as you 
understand, it brings lots of challenges. Technology also 
brings opportunities. Technology can help us keep that data, as 
you know, safer--biometrics, for example, to make sure that the 
people who are searching that data base are cleared, things 
like that.
    I wish had a more complete----
    Senator Wyden. Admiral, I will just tell you I think we 
disagree on this point. I want to hold the record open because 
I believe there are almost no rules as to how the Government 
can use information collected by Government agencies or 
acquired from commercial data bases. And that's what I hope 
that you will be interested in working on. Let me just hold the 
record open, because I would like to have you tell me what you 
believe to be the rules with respect to how the Government can 
use the information collected by Government agencies, because I 
believe they are meager or non-existent.
    The other area that I wanted to touch on we also talked 
about briefly, and that is, I think it is so important that in 
your position, policymakers get the unvarnished truth of what's 
really going on out there and what the country can't afford to 
have is somebody in a critical position like yours saying, once 
again, something is a slam dunk when it isn't.
    Tell me what in your past--and, as we talked about, some of 
this can be sensitive--would convince the Committee that you 
will be out there telling policymakers what they don't want to 
hear?
    Admiral Redd. I thought about that after you asked me the 
question, sir, and I guess I'm going to take you back 43 years 
to start with, as a plebe at the Naval Academy when I was first 
introduced to the honor concept. My classmates elected me to be 
one of six representatives on the honor committee, and we dealt 
even then, with all the tough cases, and some people were 
thrown out for honor offenses.
    My whole life in the Navy has to do with speaking truth to 
power, whether it's as an ensign on a ship, whether it's Fifth 
Fleet commander talking to my boss, or whether it was in the 
National Security Council, talking to the very senior people 
there.
    The bottom line is, lives are at stake and when lives are 
at stake, you just can't mess around. Some of the more 
interesting examples I won't be able to share with you in 
public. If you would like a specific example, I can give you 
one. As the Fifth Fleet commander, when we set that up, the 
Chief of Naval Operations used to bring all the component 
commanders in. All the rest of them were four-stars. I was a 
three-star. As it turned out, the Fifth Fleet in the Middle 
East was probably the hottest spot. So I ended up having a lot 
more carrier time than the other CINCs did, and that wasn't 
always the most popular thing. It was the right thing to do, 
and I made a proposal for increasing that.
    Senator Wyden. That answer will work for me. I look forward 
to supporting your confirmation and working with you in the 
days ahead. And let us particularly dig in on this question of 
how we can win the war on terrorism, fight it ferociously, 
pulling out all the stops, and do a better job of safeguarding 
the privacy rights of our citizens, because I think the only 
area, based on our conversation, we disagree on is----
    Admiral Redd. We are in absolute agreement on the goal, 
sir.
    Senator Wyden. I think there's virtually no ``there'' there 
with respect to rules on how the Government can use information 
collected by Government agencies, and we've got to do a better 
job.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Levin, who must return to the 
floor to help manage the Defense Authorization Act.
    Senator Levin. Thank you and Senator Chambliss for allowing 
me to go out of order. I appreciate it a great deal.
    Senator Wyden's question about speaking truth to power, 
telling policymakers, whether they are in the executive or 
legislative branch, to me is perhaps the single most important 
question that we can ask you. And the answer that you give, as 
far as I'm concerned, is the most single important answer that 
I can even think of, which is that you have a record of saying 
to people in power, who have a rank above you, what they didn't 
necessarily want to hear, and that you are committed to do 
exactly that, and to come up with objective, independent 
assessments at NCTC and to tell the policymakers, whatever 
branch of government they might be in, precisely what it is 
that you determine to be the facts.
    And that assurance, to me, is what is critical and I very 
much welcome what you say.
    Admiral Redd. I give that to you, sir. I have done that and 
I will continue to do it.
    Senator Levin. Thank you.
    You were Executive Director of the Silberman-Robb 
Commission and you looked at the intelligence prior to our 
going to Iraq. Before that Commission met, the 9/11 Commission 
also took a look at some of the issues that were overlapping. 
One of them was the question of whether there was a 
collaborative or operational relationship between Iraq and al-
Qa'ida.
    The 9/11 Commission found no evidence of that. Did the 
Silberman-Robb Commission discover anything that would 
contradict the 9/11 Commission's finding?
    Admiral Redd. We did not explicitly look at that issue, 
sir. We were not charged to go back and either rewrite the NIE. 
We obviously talked to the people involved. Some witnesses 
thought there might have been one, but frankly it was not our 
job, nor our charter, to go back and to redo the intelligence 
analysts. We were looking more for what processes went wrong, 
and we took that as a given because that's where the 
Intelligence Committee came out.
    Senator Levin. What was the NIE finding on that issue?
    Admiral Redd. Actually, I said NIE, but I think it was the 
intelligence. I don't know whether it was an NIE or just an 
intelligence, my recollection is that while there were clearly 
terrorist connections--and there was clearly support for 
terrorists--that the official community position was they could 
not find a direct nexus between al-Qa'ida and 9/11 and Iraq.
    Senator Levin. Did you look at the question of how it is or 
how it was, then, that there was an inconsistency between what 
the Administration's statements were relative to that and what 
that underlying intelligence community position was? Did you 
look at that issue?
    Admiral Redd. We had a brief discussion in closed session 
with the Commission, but basically our charter and our job was 
basically to find out what went wrong and when it went wrong, 
and what were the processes. The intelligence itself was public 
record, so how that intelligence was dealt with by policymakers 
here or in the executive branch was, we thought, rightly beyond 
our charter, because it was not a question of what the 
intelligence community said. It was out in the open for 
everybody to make their own judgment.
    Senator Levin. Do you personally have an opinion that 
explains that inconsistency?
    Admiral Redd. I'm sorry, inconsistency----
    Senator Levin. Inconsistency between Administration 
statements on the relationship between al-Qa'ida and Iraq and 
the intelligence community's assessment?
    Admiral Redd. My recollection--as I told you in private--I 
probably sat in 200----
    Senator Levin. I mean about the relationship.
    Admiral Redd. I understand, sir. But I sat in probably 200 
National Security Council meetings in the last Administration, 
the Clinton Administration, as well as this one, and I think 
the intelligence community, certainly on WMD, and I think with 
the terror thing, was pretty much convinced, on WMD, clearly 
convinced. I can't say that I have a personal opinion.
    I will tell you there were some indications--we weren't 
asked to look into it, but there were some indications that 
there might have been more of a connection there than the 
intelligence community came up with, sir. But I'll be honest 
with you. We didn't delve in deeply.
    Senator Levin. Thank you. And again my thanks to Senator 
Chambliss and our Chairman.
    Chairman Roberts. Senator Chambliss?
    Senator Chambliss. Thank you, Mr. Chairman.
    Admiral, again I just thank you for your commitment to 
public service. Thank you for what you've done for our country 
and thank you for what you're willing to do in this particular 
position for our country.
    I think you are right. I've got two grandchildren also, and 
our children and grandchildren are certainly going to be the 
beneficiaries of the great work that I know you're going to do. 
It's going to be in their lifetime, probably, that this war on 
terrorism is going to be concluded, rather than in ours. But 
the framework and the foundation for that battle is going to be 
part of your day-to-day operation from now on.
    You have been a commander, both at the very highest level, 
commanding the naval forces in Central Command. You were 
commander of the Fifth Fleet. You also commanded a 
multinational NATO force, destroyer squadron, guided missile 
destroyer, as well as a carrier battle group. In each of those 
leadership positions, you have been a consumer of intelligence.
    And now you're going to be on the other end of it. I think 
that that experience that you have is extremely valuable 
because you understand how critically important it is that 
intelligence get to the leadership that is on the battlefield 
in real time. I think that's going to be your biggest 
challenge.
    One thing that I would just say to you is that this 
Committee has been very much involved in the process of 
drafting the legislation, reform legislation of the 
intelligence community. We're here to provide you with the type 
of resources you need, to try to provide you with the type of 
assistance you need in any way relative to ensuring that 
whatever needs you have to carry out that mission of 
disseminating that information to the right people in real time 
is there.
    The only thing I will say is, I hope you will make a point 
of staying in touch with us. We don't want you up here 
testifying all the time; but we want you coming up talking to 
us and telling us how things are working and what your needs 
are. So all I want to say to you is, I appreciate again your 
willingness to continue to serve our country. We look forward 
to continuing to work with you on an even more regular basis.
    Admiral Redd. Thank you, Senator. A couple of very good 
point. And yes, being a consumer makes you more critical about 
the process. At the WMD Commission we talked about what is, I 
guess, most commonly attributed to Colin Powell--tell me what 
you know, tell me what you don't know, and tell me what you 
think. And we sort of added a fourth thing to that--tell me why 
you think it.
    That's probably one of the things that the NCTC can best 
do, is get to the bottom of--you know, so many times 
presuppositions differ and from different presuppositions you 
get into a different answer. And if you don't go back to that 
and say why do you think what you think, that's certainly a 
value-added, which I think NCTC can do.
    The battlefield analogy with the military is a very real 
one and it represents a very real challenge, as you know. We 
have seen in both of the Gulf wars the tremendous ability to 
get intelligence out to the battlefield commander, as needed, 
on time and timed to influence a battle. The new challenge is 
getting it out to a different battlefield, and that's the State 
and local officials here, on the border, and FBI, and making 
sure that we take this very--in some cases--very highly-
classified information, get it down to a classification level 
where it's actionable, and getting that actionable intelligence 
out to the man or woman on the street, whether it's law 
enforcement or homeland security.
    You have my commitment, sir. I will stay in touch. It's 
very clear that Congress has had a major hand in intelligence 
reform in general and in the establishment of the NCTC, so I 
will stay closely in touch, sir. I won't wait to be called.
    Senator Chambliss. Thank you.
    Chairman Roberts. Welcome back, Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. I'm 
glad once again to rejoin the Committee after my very short 
hospital stay.
    Admiral Redd, first of all, welcome to the Committee and 
welcome to the job. I certainly believe you will be confirmed. 
I could only reiterate what others have said about a very 
distinguished career. And also you're at the point in your life 
where you could be on boards of directors and home for dinner 
every night.
    Admiral Redd. I've been reminded of that, yes, ma'am.
    Senator Mikulski. I'm sure. And, to your family, we also 
want to express our gratitude. We're glad that someone of your 
leadership seasoning and experience is taking this job. I 
believe that you are qualified for the job.
    My questions are really how do you see the job. Senators 
Wyden and Levin raised the issues of truth to power. That's one 
of the questions I ask. But mine are a bit different.
    Going back to operating off of some of the information in 
the Robb-Silberman report, first of all let me say this. Every 
time there's been a problem now, it's let's have another 
center--a center today, a center tomorrow, a center here, a 
center there. And we seem to be losing our center of gravity 
sometimes because of it.
    Then, what emerges is the ambiguities in the respective 
roles and authorities that have come forth. Senators Collins 
and Levin wrote a letter to Homeland Security, TTIC and so on 
asking for clarification between all of the elements.
    My question to you is, how do you see really establishing 
this? One other dimension, I am the Ranking Member on the 
Commerce, Justice Appropriations, so that's for the FBI. We're 
very close with the FBI. We don't want a domestic surveillance 
agency, but the FBI is out of the loop in some ways, even with 
what we talk about here, and the Judiciary Committee.
    So, could you give me a picture of how you see launching 
this ship, number one; and then, number two, what you would 
see, elaborating on what you define as the strategic operations 
planning aspects of what's included in the statute?
    Mine's more nuts and bolts, because I tell you, as the 
Ranking Member for FBI, being on here with the Intel Committee, 
and then I'm on Defense Appropriations, it's a little----
    Admiral Redd. I obviously like the concept of launching the 
ship, Senator. It's a metaphor I'm familiar with.
    Senator Mikulski. I thought you'd like it.
    Admiral Redd. I obviously would note that a lot of my early 
training came from the State of Maryland, down the road in 
Annapolis.
    I think, as I said in my opening statement, there are two 
fundamental missions. One of them we're pretty well down the 
road on. That's on the intelligence side. There's a lot to be 
done yet on the intelligence and integration side. We're not 
there yet, but we're clearly in the right place, moving in the 
right direction.
    I have to say, Mr. Chairman, if I say ``we,'' I apologize. 
I understand and I've been assiduous about not taking any 
actions or doing anything which would assume or presume 
confirmation, but sometimes when you get in a leadership mode 
you start----
    Senator Mikulski. Don't worry about it.
    Admiral Redd. Thank you.
    Having said that, the strategic operational planning is a 
landmark piece of legislation and it's a landmark concept. I 
have watched in the military, obviously, before I was born, the 
Department of the Navy and the Department of War, and never the 
twain shall meet. So after Grenada and some other things, we 
got Goldwater-Nichols and we finally got the militaries talking 
to each other.
    I've seen that progress now, and my experience in Baghdad, 
where we had all elements of the government coming together, 
sometimes a bit of a lashup, but making it work together.
    In the past, we've had a very robust, sometimes painful but 
nonetheless reasonably effective way of doing overall policy--
the National Security Council deputies committee, principals 
committee, National Security Council itself with the President 
presiding and deciding those high policy-level things.
    So the strategic operational planning function of the NCTC 
really is the next level down. We're putting somebody in and 
saying this center now has a mission of doing that on a day-to-
day basis, taking all the elements of national power--it 
obviously involves the Secretary of Defense, Secretary of State 
and a number of other agencies--and bringing them together and 
saying this is our cut at how strategic operational planning 
ought to be done.
    So I think a couple of things. It's a very comfortable 
model to me in the sense that I've done it. That's the way you 
do planning. You start with a strategy and you say, okay, what 
are the goals, what are the missions, what are the tasks, who 
is best suited to take these tasks on, assign them out. Then 
the agencies come back and they bring it together and you say, 
okay, let's make sure we're coordinating. And here's the key 
part. Then we look at some metrics. How are we doing?
    Because, as you well know from your Armed Services and 
other associations, the first casualty of war is usually the 
plan. But the process of going through and getting to that plan 
is what's critical. So we're starting it. There's work going 
on. We're just in the process of standing that up.
    The first thing is to get people, to get the right number 
of the right people. We've just got a new deputy director who 
has reported aboard with extensive planning experience. He 
happens to be an active-duty two-star general who set up the 
global war on terrorism, Jeff Schlosser, and I'm looking 
forward to working with him.
    But fundamentally, this is going to be an interesting 
evolution, but it's a critical one because it really is, on a 
day-to-day basis, bringing the elements together.
    Senator Mikulski. First of all, we will look forward to 
seeing how this is going to work. But do you believe that the 
way we are underway in clarifying the roles, these ambiguous 
roles between NCTC and counterterrorism at CIA, and where is 
the FBI in all this----
    Admiral Redd. Yes, ma'am. As I said earlier, it's no secret 
there have been some disagreements, but the bottom line is, 
everybody's heading in the same direction. I think the Congress 
has made it clear, the President has made it clear, that the 
National Counterterrorism Center is to be the primary 
organization for analysis and integration of all intelligence 
information. I'm now back on the intelligence side, obviously.
    The FBI and the NCTC are collocated out there. And we're 
making a lot of progress. We still have a few things to work 
out, but I think that under John Negroponte's leadership we're 
making a lot of progress as well.
    Senator Mikulski. Thank you. Mr. Chairman, I think that 
covers this line of questions. I think the next line will be 
when Admiral Redd's on the job and we have a chance to visit to 
see how this is going and how we can make it happen.
    Chairman Roberts. We would look forward to that, Senator. I 
thank you for your questions.
    I just have basically one more and then an observation. 
You've been described--and these are my words; I'm 
paraphrasing--as sort of a oil can man--hear a squeak, hear a 
problem, hear a gearbox or see a gearbox that's not working, 
whether it be on the policy side or whether it be in the 
military or any of your past assignments.
    And that's what you need to head up the NCTC. And you've 
also been described as a person who is able to bring people 
together and have what we in the Senate sometimes call 
meaningful dialogue, despite strong differences of opinion.
    We talked about the fact that in the intelligence community 
there was a lot of discussion when we went through the 
intelligence reform bill about who is the majority user of 
intelligence and where should that authority lie. As I 
indicated to you, it would be late in the evening and we could 
hear the bulldozers scraping up turf against the Committee 
doors so they could have ample input, as they have had in the 
past.
    Having said that, the Department of Defense obviously takes 
up a great deal of the intelligence budget and the majority 
user is the warfighter. There's nothing more important than 
real-time intelligence to the warfighter. You've indicated that 
and you've indicated quite poignantly those who are missing, 
because in part we didn't have the proper intelligence. And 
there are other reasons as well.
    But as I have pointed out to people that were involved in 
debate, while the majority user--and no Member of Congress 
wants to deny the warfighter any real-time intelligence, that 
would be ridiculous--we want the very best and we want it real-
time, and I think we're making unbelievable progress. If you 
look back where we were 5 years ago, 3 years ago, 2 years ago, 
what we're obtaining today from detainee interrogation and 
other means of collection, then getting that into the hands of 
the warfighter, saving Iraqi lives, saving Afghan lives, saving 
American lives, subverting plots against the homeland and other 
areas of the world, I think we're doing much better.
    But the primary users are the President of the United 
States and the National Security Council and the Congress. So 
my question to you is, will you alert the Committee if you 
encounter pushback from any of the agencies or elements of 
agencies which do not fall under the National Intelligence 
Program? We're here to help.
    Admiral Redd. The short answer, Senator, is yes. If I could 
qualify that a little, if I encounter pushback, which I am not 
able to resolve or we're not able to resolve to our 
satisfaction. There will be pushback, as you understand. Your 
metaphors are very rich, and I can see the bulldozer scraping 
that turf up into a pretty high berm, probably, outside of the 
Committee.
    All that said, there will be pushback, but I think I'm old-
fashioned enough and maybe naive enough to believe that even 
inside the Beltway that substance will triumph over style and 
that function will triumph over form. So I think from a 
leadership standpoint the key thing is reminding everybody of 
the vision of why we're here and overcoming that parochialism 
by lifting everybody up to the plane above that.
    I know certainly the Cabinet officers all feel that way and 
most of the people I deal with on the senior levels feel that 
way. So that's part of the leadership challenge, whether you 
have the absolute authority to command or demand something. 
Obviously that's one thing, especially in Washington or inside 
here, but the reality is that reminding people of why we are 
here and what the mission is I find is often very good at 
clearing the air. I will come back to you, sir, if I'm not able 
to accomplish my mission and I need help.
    Chairman Roberts. Well, we'll ride shotgun with you any 
time.
    Admiral Redd. Thank you, sir.
    Chairman Roberts. Thank you for your presentation.
    That concludes the Committee hearing.
    [Whereupon, at 3:33 p.m., the Committee adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4984.001
    
    [GRAPHIC] [TIFF OMITTED] T4984.002
    
    [GRAPHIC] [TIFF OMITTED] T4984.003
    
    [GRAPHIC] [TIFF OMITTED] T4984.004
    
    [GRAPHIC] [TIFF OMITTED] T4984.005
    
    [GRAPHIC] [TIFF OMITTED] T4984.006
    
    [GRAPHIC] [TIFF OMITTED] T4984.007
    
    [GRAPHIC] [TIFF OMITTED] T4984.008
    
    [GRAPHIC] [TIFF OMITTED] T4984.009
    
    [GRAPHIC] [TIFF OMITTED] T4984.010
    
    [GRAPHIC] [TIFF OMITTED] T4984.011
    
    [GRAPHIC] [TIFF OMITTED] T4984.012
    
    [GRAPHIC] [TIFF OMITTED] T4984.013
    
    [GRAPHIC] [TIFF OMITTED] T4984.014
    
    [GRAPHIC] [TIFF OMITTED] T4984.015
    
    [GRAPHIC] [TIFF OMITTED] T4984.016
    
    [GRAPHIC] [TIFF OMITTED] T4984.017
    
    [GRAPHIC] [TIFF OMITTED] T4984.018
    
    [GRAPHIC] [TIFF OMITTED] T4984.019
    
    [GRAPHIC] [TIFF OMITTED] T4984.020
    
    [GRAPHIC] [TIFF OMITTED] T4984.021
    
    [GRAPHIC] [TIFF OMITTED] T4984.022
    
    [GRAPHIC] [TIFF OMITTED] T4984.023
    
    [GRAPHIC] [TIFF OMITTED] T4984.024
    
    [GRAPHIC] [TIFF OMITTED] T4984.025
    
    [GRAPHIC] [TIFF OMITTED] T4984.026
    
    [GRAPHIC] [TIFF OMITTED] T4984.027
    
    [GRAPHIC] [TIFF OMITTED] T4984.028
    
    [GRAPHIC] [TIFF OMITTED] T4984.029
    
    [GRAPHIC] [TIFF OMITTED] T4984.030
    
    [GRAPHIC] [TIFF OMITTED] T4984.031
    
    [GRAPHIC] [TIFF OMITTED] T4984.032
    
    [GRAPHIC] [TIFF OMITTED] T4984.033
    
    [GRAPHIC] [TIFF OMITTED] T4984.034
    
    [GRAPHIC] [TIFF OMITTED] T4984.035
    
    [GRAPHIC] [TIFF OMITTED] T4984.036
    
    [GRAPHIC] [TIFF OMITTED] T4984.037
    
    [GRAPHIC] [TIFF OMITTED] T4984.038
    
    [GRAPHIC] [TIFF OMITTED] T4984.039
    
    [GRAPHIC] [TIFF OMITTED] T4984.040
    
    [GRAPHIC] [TIFF OMITTED] T4984.041
    
    [GRAPHIC] [TIFF OMITTED] T4984.042
    
    [GRAPHIC] [TIFF OMITTED] T4984.043
    
    [GRAPHIC] [TIFF OMITTED] T4984.044
    
    [GRAPHIC] [TIFF OMITTED] T4984.045
    
    [GRAPHIC] [TIFF OMITTED] T4984.046
    
    [GRAPHIC] [TIFF OMITTED] T4984.047
    
    [GRAPHIC] [TIFF OMITTED] T4984.048
    
    [GRAPHIC] [TIFF OMITTED] T4984.049
    
    [GRAPHIC] [TIFF OMITTED] T4984.050
    
    [GRAPHIC] [TIFF OMITTED] T4984.051
    
    [GRAPHIC] [TIFF OMITTED] T4984.052
    
    [GRAPHIC] [TIFF OMITTED] T4984.053
    
    [GRAPHIC] [TIFF OMITTED] T4984.054
    
    [GRAPHIC] [TIFF OMITTED] T4984.055
    
    [GRAPHIC] [TIFF OMITTED] T4984.056
    
    [GRAPHIC] [TIFF OMITTED] T4984.057
    
    [GRAPHIC] [TIFF OMITTED] T4984.058
    
    [GRAPHIC] [TIFF OMITTED] T4984.060
    
    [GRAPHIC] [TIFF OMITTED] T4984.061
    
    [GRAPHIC] [TIFF OMITTED] T4984.062
    
    [GRAPHIC] [TIFF OMITTED] T4984.063
    
    [GRAPHIC] [TIFF OMITTED] T4984.064
    
    [GRAPHIC] [TIFF OMITTED] T4984.065
    
    [GRAPHIC] [TIFF OMITTED] T4984.066
    
    [GRAPHIC] [TIFF OMITTED] T4984.067
    
    [GRAPHIC] [TIFF OMITTED] T4984.068
    
    [GRAPHIC] [TIFF OMITTED] T4984.069
    
    [GRAPHIC] [TIFF OMITTED] T4984.070
    
    [GRAPHIC] [TIFF OMITTED] T4984.071
    
    [GRAPHIC] [TIFF OMITTED] T4984.072
    
    [GRAPHIC] [TIFF OMITTED] T4984.073
    
    [GRAPHIC] [TIFF OMITTED] T4984.074
    
    [GRAPHIC] [TIFF OMITTED] T4984.075
    
    [GRAPHIC] [TIFF OMITTED] T4984.076
    
    [GRAPHIC] [TIFF OMITTED] T4984.077
    
    [GRAPHIC] [TIFF OMITTED] T4984.078
    
    [GRAPHIC] [TIFF OMITTED] T4984.079
    
    [GRAPHIC] [TIFF OMITTED] T4984.080
    
    [GRAPHIC] [TIFF OMITTED] T4984.081
    
    [GRAPHIC] [TIFF OMITTED] T4984.082
    
    [GRAPHIC] [TIFF OMITTED] T4984.083
    
    [GRAPHIC] [TIFF OMITTED] T4984.084
    
    [GRAPHIC] [TIFF OMITTED] T4984.085
    
    [GRAPHIC] [TIFF OMITTED] T4984.086
    
    [GRAPHIC] [TIFF OMITTED] T4984.087
    
    [GRAPHIC] [TIFF OMITTED] T4984.088
    
    [GRAPHIC] [TIFF OMITTED] T4984.089
    
    [GRAPHIC] [TIFF OMITTED] T4984.090
    
    [GRAPHIC] [TIFF OMITTED] T4984.091
    
    [GRAPHIC] [TIFF OMITTED] T4984.092
    
    [GRAPHIC] [TIFF OMITTED] T4984.093
    
    [GRAPHIC] [TIFF OMITTED] T4984.094
    
    [GRAPHIC] [TIFF OMITTED] T4984.095
    
    [GRAPHIC] [TIFF OMITTED] T4984.096
    
    [GRAPHIC] [TIFF OMITTED] T4984.097
    
    [GRAPHIC] [TIFF OMITTED] T4984.098
    
    [GRAPHIC] [TIFF OMITTED] T4984.099
    
    [GRAPHIC] [TIFF OMITTED] T4984.100
    
    [GRAPHIC] [TIFF OMITTED] T4984.101
    
    [GRAPHIC] [TIFF OMITTED] T4984.102
    
    [GRAPHIC] [TIFF OMITTED] T4984.103
    
    [GRAPHIC] [TIFF OMITTED] T4984.104
    
    [GRAPHIC] [TIFF OMITTED] T4984.105
    
    [GRAPHIC] [TIFF OMITTED] T4984.106
    
    [GRAPHIC] [TIFF OMITTED] T4984.108
    
    [GRAPHIC] [TIFF OMITTED] T4984.109
    
    [GRAPHIC] [TIFF OMITTED] T4984.110
    
    [GRAPHIC] [TIFF OMITTED] T4984.111
    
    [GRAPHIC] [TIFF OMITTED] T4984.112
    
    [GRAPHIC] [TIFF OMITTED] T4984.113
    
    [GRAPHIC] [TIFF OMITTED] T4984.114
    
    [GRAPHIC] [TIFF OMITTED] T4984.115
    
    [GRAPHIC] [TIFF OMITTED] T4984.116
    
    [GRAPHIC] [TIFF OMITTED] T4984.117
    
    [GRAPHIC] [TIFF OMITTED] T4984.118
    
    [GRAPHIC] [TIFF OMITTED] T4984.119
    
    [GRAPHIC] [TIFF OMITTED] T4984.120
    
    [GRAPHIC] [TIFF OMITTED] T4984.121
    
    [GRAPHIC] [TIFF OMITTED] T4984.122
    
    [GRAPHIC] [TIFF OMITTED] T4984.123
    
    [GRAPHIC] [TIFF OMITTED] T4984.124
    
    [GRAPHIC] [TIFF OMITTED] T4984.125
    
    [GRAPHIC] [TIFF OMITTED] T4984.126
    
    [GRAPHIC] [TIFF OMITTED] T4984.127
    
    [GRAPHIC] [TIFF OMITTED] T4984.128
    
    [GRAPHIC] [TIFF OMITTED] T4984.129
    
    [GRAPHIC] [TIFF OMITTED] T4984.130
    
    [GRAPHIC] [TIFF OMITTED] T4984.131
    
    [GRAPHIC] [TIFF OMITTED] T4984.132
    
    [GRAPHIC] [TIFF OMITTED] T4984.133
    
    [GRAPHIC] [TIFF OMITTED] T4984.134
    
    [GRAPHIC] [TIFF OMITTED] T4984.135
    
    [GRAPHIC] [TIFF OMITTED] T4984.136
    
    [GRAPHIC] [TIFF OMITTED] T4984.137
    
    [GRAPHIC] [TIFF OMITTED] T4984.138
    
    [GRAPHIC] [TIFF OMITTED] T4984.139
    
    [GRAPHIC] [TIFF OMITTED] T4984.140
    
    [GRAPHIC] [TIFF OMITTED] T4984.141
    
    [GRAPHIC] [TIFF OMITTED] T4984.142
    
    [GRAPHIC] [TIFF OMITTED] T4984.143
    
    [GRAPHIC] [TIFF OMITTED] T4984.144
    
    [GRAPHIC] [TIFF OMITTED] T4984.145
    
    [GRAPHIC] [TIFF OMITTED] T4984.146
    
    [GRAPHIC] [TIFF OMITTED] T4984.147
    
    [GRAPHIC] [TIFF OMITTED] T4984.148
    
    [GRAPHIC] [TIFF OMITTED] T4984.149
    
    [GRAPHIC] [TIFF OMITTED] T4984.150
    
    [GRAPHIC] [TIFF OMITTED] T4984.151
    
    [GRAPHIC] [TIFF OMITTED] T4984.152
    
    [GRAPHIC] [TIFF OMITTED] T4984.153
    
    [GRAPHIC] [TIFF OMITTED] T4984.154
    
    [GRAPHIC] [TIFF OMITTED] T4984.155
    
    [GRAPHIC] [TIFF OMITTED] T4984.156
    
    [GRAPHIC] [TIFF OMITTED] T4984.157
    
    [GRAPHIC] [TIFF OMITTED] T4984.158
    
    [GRAPHIC] [TIFF OMITTED] T4984.159
    
    [GRAPHIC] [TIFF OMITTED] T4984.160
    
    [GRAPHIC] [TIFF OMITTED] T4984.161
    
    [GRAPHIC] [TIFF OMITTED] T4984.162
    
    [GRAPHIC] [TIFF OMITTED] T4984.163
    
    [GRAPHIC] [TIFF OMITTED] T4984.164
    
    [GRAPHIC] [TIFF OMITTED] T4984.165
    
    [GRAPHIC] [TIFF OMITTED] T4984.166
    
    [GRAPHIC] [TIFF OMITTED] T4984.167
    
    [GRAPHIC] [TIFF OMITTED] T4984.168
    
    [GRAPHIC] [TIFF OMITTED] T4984.169
    
    [GRAPHIC] [TIFF OMITTED] T4984.170
    
    [GRAPHIC] [TIFF OMITTED] T4984.171
    
    [GRAPHIC] [TIFF OMITTED] T4984.172
    
    [GRAPHIC] [TIFF OMITTED] T4984.173
    
    [GRAPHIC] [TIFF OMITTED] T4984.174
    
    [GRAPHIC] [TIFF OMITTED] T4984.175
    

</pre></body></html>
